(/"4
'I",::i
              DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                      Office of Inspector General
                                                                                      Offices of Audit Services



                                                                                      Region VII
                                                                                      601 East 12th Street
                                                                                      Room 284A
                                                                                      Kansas City, Missouri 64106
          October 3, 2008

          Report Number: A-07-08-00270

          Ms. Sandra Miller
          President
          National Government Services, Inc.
          8115 Knue Road
          Indianapolis, Indiana 46250

          Dear Ms. Miller:

          Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
          General (OIG), final report entitled "Review of Pension Costs Claimed for Medicare
          Reimbursement by New Hampshire - Vermont Health Service for Fiscal Years 1988 Through
          2002." We will forward a copy of this report to the HHS action official noted on the following
          page for review and any action deemed necessary.

          The HHS action official will make final determination as to actions taken on all matters reported.
          We request that you respond to this official within 30 days from the date of this letter. Your
          response should present any comments or additional information that you believe may have a
          bearing on the final determination.

          Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended by
          Public Law 104-231, OIG reports generally are made available to the public to the extent the
          information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
          will be posted on the Internet at http://oig.hhs.gov.

          If you have any questions or comments about this report, please do not hesitate to call me at
          (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
          through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-08-00270
          in all correspondence.

                                                       Sincerely,




                                                       Patrick J. ogley
                                                       Regional Inspector General
                                                        for Audit Services


          Enclosure
Page 2 - Ms. Sandra Miller

Direct Reply to UUS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF PENSION COSTS
    CLAIMED FOR MEDICARE
     REIMBURSEMENT BY
  NEW HAMPSHIRE – VERMONT
  HEALTH SERVICE FOR FISCAL
  YEARS 1988 THROUGH 2002




                    Daniel R. Levinson
                     Inspector General

                      October 2008
                      A-07-08-00270
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                               Notices

        THIS REPORT IS AVAILABLE TO THE PUBLIC
                  at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
' 552, as amended by Public Law 104-231, Office of Inspector General reports
generally are made available to the public to the extent the information is not
subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND


New Hampshire - Vermont Health Service (NH -VT) administers Medicare Part A operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).
On October 27, 1999, Anthem Insurance acquired NH - VT and on December 31, 2002, Anthem
merged the NH - VT pension plan into its defined benefit pension plan.

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

l"'he Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that NH - VT claimed for
Medicare reimbllrsement for fiscal years (FY) 1988 through 2002.

SUMMARY OF FINDING

NH - VT did not claim all pension costs that were allowable for Medicare reimbursement for
FYs 1988 through 2002 primarily because it did not base its claim for Medicare reimbursement
on the Medicare segment CAS pension costs for FYs 2001 and 2002. Therefore, NH - VT
underclaimed $190,553 of allowable pension costs.

RECOMMENDATION

We recommend that NH - VT revise its Final Administrative Cost Proposals (FACP) to claim
allowable CAS pension costs of $190,553 for FYs 1988 through 2002.

AUDITEE COMMENTS

In written comments on our draft report, the auditee concurred with our finding and
recommendation and stated that it will amend the applicable FACPs or follow other CMS
guidance to claim additional allowable pension costs of $190,553 for FYs 1988 through 2002.
                                       INTRODUCTION


BACKGROUND

New Hampshire - Vernlont

New Hampshire - Vermont Health Service (NH - VT) administers Medicare Part A operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).
On October 27, 1999, Anthem Insurance acquired NH - VT and on December 31, 2002, Anthem
merged the NH - VT pension plan into its defined benefit pension plan.

Medicare Reimbursement of Pension Costs

Medicare rein1burses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning in fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires COl1tractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

Federal Requirements

The Medicare contracts address the determination and allocation of pension costs. Appendix B,
section XVI of the contracts states: "The calculation of and accounting for pension costs
charged to this agreement/contract are governed by the Federal Acquisition Regulation and Cost
Accounting Standards 412 and 413."

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 regulates the determination and measurement of pension cost components. It also
regulates the assignment of pension costs to appropriate accounting periods.

CAS 413 regulates the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Ollr objective was to determine the allowability of pension costs that NH -   V1~   claimed for
Medicare reimbursement for FYs 1988 through 2002.

Scope

We reviewed pension costs that NH - VT claimed for Medicare reimbursement on its Final
Administrative Cost Proposals (FACP) for FYs 1988 through 2002. NH - VT was unable to
identify and provide documentation for the pension costs claimed for FYs 1988 and 1990;
therefore, we limited the scope of costs claimed to FYs 1989 and 1991 through 2002. Achieving
the objective did not require that we review NH - VT's overall internal control structure.
However, we did review the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed the audit work in the Region VII field office located in Jefferson City, Missouri.

Methodology

We identified NH - VT's CAS pension costs for the total company and the Medicare segment.
We also determined the extent to which NH - VT funded CAS pension costs with contributions
to the pension trust fund and accumulated prepayment credits. We based the calculations on
separately computed CAS pension costs for the Medicare segment and total company CAS
pension costs. The CMS Office of the Actuary calculated the allocable CAS pension costs based
on NH - VT's historical practices and on the results of our segmentation review, "Review of the
Qualified Pension Plan at New Hampshire - Vermont Health Service for the Period January 1,
1986, Through Decen1ber 31, 2002" (A-07-08-00269). Appendix A contains details on the
pension costs and contributions.

In performing our review, we used information that NH - VT's actuarial consulting firm
provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined NH - VT's
accounting records, pension plan documents, annual actuarial valuation reports, and Departn1ent
of Labor/Internal Revenue Service Form 5500s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                                2

                                FINDING AND RECOMMENDATION


ALLOWABLE PENSION COSTS NOT CLAIMED


NlI - VT did not claim all pension costs that were allowable for Medicare reimbursement for
FYs 1988 through 2002. Specifically, NH - VT did not claim $190,553 of pension costs that
                                                       1
were allowable for Medicare reimbursement for FYs 1989 and 1991 through 2002.

For FYs 1989 and 1991 through 2002, NH - VT claimed pension costs of $71 ,771 for Medicare
reimbursement. We calculated the allowable costs based on separately compllted CAS pension
costs for the Medicare segment and the total company. We determined that the allowable CAS
pension costs totaled $262,324.

We compared allowable CAS pension costs with the pension costs claimed on NH - VT's
FACPs, as shown in the table below.

                                      Pension Cost Claimed Variance
               Fiscal Year              Per OIG         PerNH - VT                   Difference
                  1989                          $0               $0                          $0
                  1991                             0                       0                    0
                  1992                             0                       0                    0
                  1993                             0                       0                    0
                  1994                             0                       0                    0
                  1995                        15,500                   5,730                9,770
                  1996                        42,094                  10,899               31,195
                  1997                        12,309                   8,900                3,409
                  1998                             0                       0                    0
                  1999                             0                       0                    0
                  2000                             0                       0                    0
                  2001                        58,460                       0               58,460
                  2002                       133,961                  46,242               87,719
                  Total                     $262,324                $71,771             $190,553


The underclaim primarily occurred because NH - VT did not base its pension costs claimed for
Medicare reimbursement on the computed Medicare segment CAS pension costs for FYs 2001
and 2002. Therefore, NH - VT underclaimed pension costs by $190,553.




IOue to the lack of documentation mentioned earlier, we were unable to determine the potential under/overclainl of
the allowable pension costs for FYs 1988 and 1990. We therefore scoped these two years out of our review;
however, based upon our computation the allowable pension costs for those 2 years were $0 (see Appendix A).


                                                         3

RECOMMENDATION

We recommend that NH - VT revise its FACPs to claim allowable CAS pension costs of
$190,553 for FYs 1989,1991 through 2002.

                                     OTHER MATTER

NH - VT did not properly fund the pension costs allocable to tl1e Medicare contracts for plan
year 1995. In addition, NH - VT did not identify or properly account for accumulated unfunded
pension costs. As a result, NH - VT understated the December 31, 2002, accllmulated
unallowable pension costs by $394,946 ($390,159-0ther segment and $4,787-Medicare
segment).

AUDITEE COMMENTS

In written comments on our draft report, the auditee concurred with our finding and
recommendation. NH - VT's Medicare contract was novated to National Government Services
(NOS) effective January 1,2007; therefore, NOS responded to the NH - VT cost claimed draft
audit report.

NOS concurred with the finding and recommendation and stated that it will amend the applicable
FACPs or follow other CMS guidance to claim additional allowable pension costs of $190,553
for FYs 1988 through 2002. NGS also stated that it will review the process of recording pension
cost to ensure that such amounts are properly supported by the Medicare segment CAS pension
costs calculations.

NOS's comments are included in their entirety as Appendix B.




                                              4

APPENDIXES

                                                                       APPENDIX A
             NEW HAMPSHIRE - VERMONT HEALTH SERVICES                     Page 1 of 10
              STATEMENT OF ALLOWABLE PENSION COSTS
                    FOR FISCAL YEARS 1988-2002




                                              Total        Other       Medicare
Date             Description                 Company      Seement      Seement

 1987    Contributions                  1/    $529,736     $529,736           $0
8.50%    Discount for Interest          2/     (29,780)     (29,780)           0
1/1/87   Present Value Contributions    3/     499,956      499,956            0
         Prepayment Credit              4/     248,028      248,028            0
         Present Value of Funding       5/     747,984      747,984            0

1/1/87   CAS Funding Target             6/     989,010      989,010             0
         Percentage Funded              7/                   75.63%        0.000/0
         Funded Pension Cost            8/                  747,988             0
         Allowable Interest             9/                   29,780             0
         Allocable Pension Cost        10/                  777,768             0




 1988    Contributions                              $0           $0           $0
9.00%    Discount for Interest                       0            0            0
1/1/88   Present Value Contributions                 0            0            0
         Prepayn1ent Credit                          0            0            0
         Present Value of Funding                    0            0            0

1/1/88   CAS Funding Target                    (11,886)            0     (11,886)
         Percentage Funded                                    0.00%        0.00%
         Funded Pension Cost                                       0            0
         Allowable Interest                                        0            0
         Allocable Pension Cost                                    0            0
1988     Fiscal Year Pension Cost      ill                  194,442             0
         Medicare LOB* Percentage      12/                    0.00%      100.000/0

         Allowable Pension Cost        13/          $0           $0           $0
                                                                    APPENDIX A
              NEW HAMPSHIRE - VERMONT HEALTH SERVICES                 Page 2 of 10
               STATEMENT OF ALLOWABLE PENSION COSTS
                     FOR FISCAL YEARS 1988-2002



                                         Total         Other        Medicare
Date             Description            Company       Se2ment       Se2ment

 1989     Contributions                       $0             $0            $0
9.000/0   Discount for Interest                0              0             0
1/1/89    Present Value Contributions          0              0             0
          Prepayment Credit                    0              0             0
          Present Value of Funding             0              0             0

1/1/89    CAS Funding Target                      0           0              0
          Percentage Funded                               0.00%         0.000/0
          Funded Pension Cost                                 0              0
          Allowable Interest                                  0              0
          Allocable Pension Cost                              0              0
 1989     Fiscal Year Pension Cost                            0              0
          Medicare LOB Percentage                         0.00%       100.000/0

          Allowable Pension Cost              $0             $0            $0




 1990     Contributions                       $0             $0            $0
9.00%     Discount for Interest                0              0             0
1/1/90    Present Value Contributions          0              0             0
          Prepayment Credit                    0              0             0
          Present Value of Funding             0              0             0

1/1/90    CAS Funding Target                      0            0             0
          Percentage Funded                               0.00%         0.000/0
          Fllnded Pension Cost                                 0             0
          Allowable Interest                                   0             0
          Allocable Pension Cost                               0             0
 1990     Fiscal Year Pension Cost                             0             0
          Medicare LOB Percentage                         0.000/0     100.00%

          Allowable Pension Cost              $0             $0            $0
                                                                   APPENDIX A
             NEW HAMPSHIRE - VERMONT HEALTH SERVICES                 Page 3 of 10
              STATEMENT OF ALLOWABLE PENSION COSTS
                    FOR FISCAL YEARS 1988-2002



                                        Total         Other        Medicare
Date             Description           Company       Se2ment       Se2ment

 1991    Contributions                       $0             $0            $0
9.00%    Discount for Interest                0              0             0
1/1/91   Present Value Contributions          0              0             0
         Prepayment Credit                    0              0             0
         Present Value of Funding             0              0             0

1/1/91   CAS Funding Target                      0            0             0
         Percentage Funded                               0.00%         0.000/0
         Funded Pension Cost                                  0             0
         Allowable Interest                                   0             0
         Allocable Pension Cost                               0             0
1991     Fiscal Year Pension Cost                             0             0
         Medicare LOB Percentage                         0.000/0     100.00%

         Allowable Pension Cost              $0             $0            $0




 1992    Contributions                       $0             $0            $0
9.00%    Discount for Interest                0              0             0
1/1/92   Present Value Contributions          0              0             0
         Prepayn1ent Credit                   0              0             0
         Present Value of Funding             0              0             0

1/1/92   CAS Funding Target                      0           0             0
         Percentage Funded                               0.00%         0.00%
         Funded Pension Cost                                 0             0
         Allowable Interest                                  0             0
         Allocable Pension Cost                              0             0
1992     Fiscal Year Pension Cost                            0             0
         Medicare LOB Percentage                         0.00%       100.00%

         Allowable Pension Cost              $0             $0            $0
                                                                    APPENDIX A
              NEW HAMPSHIRE - VERMONT HEALTH SERVICES                 Page 4 of 10
               STATEMENT OF ALLOWABLE PENSION COSTS
                     FOR FISCAL YEARS 1988-2002



                                         Total         Other        Medicare
Date             Description            Company       Seement       Seement

 1993     Contributions                 $1,222,165    $1,222,165           $0
8.500/0   Discount for Interest            (73,887)      (73,887)           0
1/1/93    Present Value Contributions    1,148,278     1,148,278            0
          Prepayment Credit                      0             0            0
          Present Value of Funding       1,148,278     1,148,278            0

1/1/93    CAS Funding Target             1,068,572     1,068,572             0
          Percentage Funded                              100.00%        0.000/0
          Funded Pension Cost                          1,068,572             0
          Allowable Interest                              64,337             0
          Allocable Pension Cost                       1,132,909             0
1993      Fiscal Year Pension Cost                       849,682             0
          Medicare LOB Percentage                          0.00%      100.000/0

          Allowable Pension Cost                $0            $0           $0




 1994     Contributions                 $1,441,235    $1,441,235           $0
8.00%     Discollnt for Interest           (73,076)      (73,076)           0
1/1/94    Present Value Contributions    1,368,159     1,368,159            0
          Prepayment Credit                 86,481        86,481            0
          Present Value of Funding       1,454,640     1,454,640            0

1/1/94    CAS Funding Target             1,326,773     1,326,773            0
          Percentage Fllnded                             100.00%        0.00%
          Funded Pension Cost                          1,326,773            0
          Allowable Interest                              66,246            0
          Allocable Pension Cost                       1,393,019            0
1994      Fiscal Year Pension Cost                     1,327,992            0
          Medicare LOB Percentage                          0.00%      100.00%

          Allowable Pension Cost                $0            $0           $0
                                                                        APPENDIX A
               NEW HAMPSHIRE - VERMONT HEALTH SERVICES                    Page 5 of 10
                STATEMENT OF ALLOWABLE PENSION COSTS
                      FOR FISCAL YEARS 1988-2002



                                           Total
         Other         Medicare
Date               Descriotion            Company
       Seement        Seement

 1995	     Contributions                  $1,567,212     $1,548,219       $18,993
8.500/0	   Discount for Interest             (85,956)       (84,914)       (1,042)
1/1/95	    Present Value Contributions     1,481,256      1,463,305        17,951
           Prepayment Credit                 138,097
       136,423         1,674
           Present Value of Funding        1,619,353
     1,599,728        19,625

1/1/95	    CAS Funding Target              1,820,316
     1,798,256        22,060
           Percentage Funded
                                88.96%        88.960/0
           Funded Pension Cost
                           1,599,729        19,625
           Allowable Interest
                               84,914         1,042
           Allocable Pension Cost
                        1,684,643        20,667
 1995	     Fiscal Year Pension Cost
                      1,611,737        15,500
           Medicare LOB Percentage
                           0.00%       100.000/0

           Allowable Pension Cost	           $15,500             $0       $15,500




 1996      Contributions                  $1,782,874     $1,733,638       $49,236
8.50%      Discount for Interest             (96,681 )      (94,011)       (2,670)
1/1/96     Present Value Contributiol1s    1,686,193      1,639,627        46,566
           Prepayment Credit                       0                            0
           Present Value of Funding        1,686,193      1,639,627°       46,566

1/1/96	    CAS Funding Target              1,562,672      1,516,106        46,566
           Percentage Fllnded                               100.000/0     100.000/0
           Funded Pension Cost                            1,516,106        46,566
           Allowable Interest                                86,929         2,670
           Allocable Pension Cost                         1,603,035        49,236
 1996	     Fiscal Year Pension Cost                       1,623,437        42,094
           Medicare LOB Percentage                            0.000/0     100.00%

           Allowable Pension Cost	           $42,094             $0       $42,094
                                                                     APPENDIX A
              NEW HAMPSHIRE - VERMONT HEALTH SERVICES                  Page 6 of 10
               STATEMENT OF ALLOWABLE PENSION COSTS
                     FOR FISCAL YEARS 1988-2002



                                         Total         Other         Medicare
Date              Description           Company       Seement        Se2ment

 1997     Contributions                 $2,490,084    $2,490,084            $0
8.500/0   Discount for Interest           (148,940)     (148,940)            0
1/1/97    Present Value Contributions    2,341,144     2,341,144             0
          Prepayn1ent Credit               134,020       134,020             0
          Present Value of Funding       2,475,164     2,475,164             0

1/1/97    CAS Funding Target             1,581,827     1,581,827              0
          Percentage Funded                              100.000/0       0.000/0
          Funded Pension Cost                          1,581,827              0
          Allowable Interest                              87,170              0
          Allocable Pension Cost                       1,668,997              0
1997      Fiscal Year Pension Cost                     1,652,507        12,309
          Medicare LOB Percentage                          0.000/0     100.00%

          Allowable Pension Cost          $12,309             $0       $12,309




 1998     Contributions                  $435,758      $435,758             $0
9.000/0   Discount for Interest            (35,962)      (35,962)            0
1/1/98    Present Value Contributions      399,796       399,796             0
          Prepayment Credit                969,270       969,270             0
          Present Value of Funding       1,369,066     1,369,066             0

1/1/98    CAS Funding Target             1,058,264     1,058,264             0
          Percentage Funded                              100.000/0       0.00%
          Funded Pension Cost                          1,058,264             0
          Allowable Interest                               5,673
          Allocable Pension Cost                       1,063,937             °
                                                                             0
1998      Fiscal Year Pension Cost                     1,215,202             0
          Medicare LOB Percentage                          0.00%       100.00%

          Allowable Pension Cost                $0            $0            $0
                                                                     APPENDIX A
              NEW HAMPSHIRE - VERMONT HEALTH SERVICES                  Page 7 of 10
               STATEMENT OF ALLOWABLE PENSION COSTS
                     FOR FISCAL YEARS 1988-2002



                                          Total         Other        Medicare
Date              Description            Company       Se2ment       Seement

 1999     Contributions                   $388,523      $388,523            $0
9.00%     Discount for Interest            (32,080)      (32,080)            0
1/1/99    Present Value Contriblltions     356,443       356,443             0
          Prepayment Credit                338,775       338,775             0
          Present Value of Funding         695,218       695,218             0

1/1/99    CAS Funding Target               626,778       626,778              0
          Percentage Funded                              100.00%         0.000/0
          Funded Pension Cost                            626,778              0
          Allowable Interest                              18,360              0
          Allocable Pension Cost                         645,138              0
1999      Fiscal Year Pension Cost                       749,838              0
          Medicare LOB Percentage                          0.00%       100.00%

          Allowable Pension Cost                 $0            $0           $0




 2000     Contributions                  $3,550,050    $3,550,050           $0
9.000/0   Discount for Interest            (220,224)     (220,224)           0
1/1/00    Present Value Contributions     3,329,826     3,329,826            0
          Prepayment Credit                       0             0            0
          Present Value of Funding        3,329,826     3,329,826            0

1/1/00    CAS Funding Target                       0            0             0
          Percentage Funded                                0.00%         0.00%
          f"unded Pension Cost                                  0             0
          Allowable Interest                                    0             0
          Allocable Pension Cost                                0             0
2000      Fiscal Year Pension Cost                       161,285              0
          Medicare LOB Percentage                          0.000/0     100.000/0

          Allowable Pension Cost                 $0            $0           $0
                                                                       APPENDIX A
                 NEW HAMPSHIRE - VERMONT HEALTH SERVICES                 Page 8 of 10
                  STATEMENT OF ALLOWABLE PENSION COSTS
                        FOR FISCAL YEARS 1988-2002



                                           Total         Other         Medicare
  Date                Description         Company       Se2ment        Se2ment

  2001      Contributions                 $6,420,172    $6,420,172            $0
 9.00%      Discount for Interest           (515,581)     (515,581)            0
 1/1/01     Present Value Contributions    5,904,591     5,904,591             0
            Prepayment Credit              1,604,438     1,526,491        77,947
            Present Value of Funding       7,509,029     7,431,082        77,947

 1/1/01     CAS Funding Target             1,604,438     1,526,491        77,947
            Percentage Funded                              100.000/0     100.00%
            Funded Pension Cost                          1,526,491        77,947
            Allowable Interest                                    0            0
            Allocable Pension Cost                       1,526,491        77,947
  2001      Fiscal Year Pension Cost                     1,144,868        58,460
            Medicare LOB Percentage                          0.00%       100.00%

            Allowable Pension Cost           $58,460            $0       $58,460




  2002      Contributions                         $0            $0            $0
 9.00%      Discount for Interest                  0             0             0
 1/1/02     Present Value Contributions            0             0             0
            Prepayment Credit              2,602,533     2,449,901       152,632
            Present Value of Funding       2,602,533     2,449,901       152,632

 1/1/02     CAS Funding Target             2,602,533     2,449,901       152,632
            Percentage Funded                              100.000/0     100.00%
            Funded Pension Cost                          2,449,901       152,632
            Allowable Interest                                    0            0
            Allocable Pension Cost                       2,449,901       152,632
  2002      Fiscal Year Pension Cost                     2,219,049       133,961
            Medicare LOB Percentage                          0.00%       100.00%

            Allowable Pension Cost         $133,961             $0      $133,961



* Line of business.
                                                                                             APPENDIX A
                       NEW HAMPSHIRE - VERMONT HEALTH SERVICES                                 Page 9 of 10
                        STATEMENT OF ALLOWABLE PENSION COSTS
                              FOR FISCAL YEARS 1988-2002
FOOTNOTES

   lL We obtained Total Company contribution amounts and dates of deposit from Internal Revenue
     Service Form 5500 reports. The contributions included deposits made during the plan year and
     accrued contributions deposited after the end of the plan year but within the time allowed for
     filing tax returns. We determined the contributions allocated to the Medicare segment during
     the pension segmentation review (A-07-08-00269). The amounts shown for the Other segment
     represent the difference between the Total Company and the Medicare segment.

   2/ We subtracted the interest that is included in the contributions deposited after January 1 of each
      year to discount the contributions back to their beginning-of-the-year value. For purposes of
      this Appendix, we computed the interest as the difference between the present value of
      contributions (at the valuation interest rate) and actual contribution amounts.

   3/ The present value of contributions is the value of the contributions discounted from the date of
      deposit back to January 1. For purposes of this Appendix, we deen1ed deposits made after the
      end of the plan year to have been made on the final day of the plan year, consistent with tl1e
      method mandated by Employee Retirement Income Security Act.

   4/ A prepayment credit represents the accun1ulated value of premature funding from the previous
      year(s). A prepayment credit is created when contributions, plus interest, exceed the end-of-year
      Cost Accounting Standards (CAS) funding target. A prepayment credit may be carried forward,
      with interest, to fund future CAS pension costs.

   5/ The present value of funding represents the present value of contributions plus prepayment
      credits. This is the amount of funding that is available to cover the CAS funding target
      measured at January 1 of each year.

   6/ The CAS funding target must be funded by current or prepaid contriblltions to satisfy the
      funding requirement of the Federal Acquisition Regulation (FAR) 31.205-6G)(2)(i). A negative
      CAS funding target represents an assignable cost credit and is carried forward and used to
      reduce the CAS funding target for future periods in accordance with CAS 412.50(c)(2)(i).

   7/ The percentage of costs funded is a measure of the portion of the CAS hlnding target that was
      funded during the plan year. Because any funding in excess of the CAS funding target is
      considered premature funding in accordance with CAS 412.50(c)(I) (as amended), the funded
      ratio may not exceed 100 percent. We computed the percentage funded as the present value of
      funding divided by the CAS funding target. For purposes of illustration, the percentage of
      hlnding has been rounded to four decimals.

   8/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent
      funded.
                                                                                           APPENDIX A
                     NEW HAMPSHIRE - VERMONT HEALTH SERVICES                                Page 10 of 10
                      STATEMENT OF ALLOWABLE PENSION COSTS
                            FOR FISCAL YEARS 1988-2002

 9/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in
    the san1e proportion as the interest on contributions bears to the present value of contributions.
    However, we lin1ited the interest in accordance with FAR 31.205-6G)(2)(iii), which does not
    permit the allowable interest to exceed the interest that would accrue if the CAS funding target,
    less the prepayment credit, were funded in four equal installments deposited within 30 days of
    the end of the quarter.

10/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract
    cost purposes.

ill We converted the plan year (January 1 through December 31) allocable pension costs to an FY
    basis (October 1 through September 30). We calculated the FY pension costs as 1/4 of the prior
    year's costs plus 3/4 of the current year's costs. Costs charged to the Medicare contract should
    consist of the Medicare segment's direct pension costs plus pension costs attributable to indirect
    Medicare operations.

12/ We calculated allowable pension costs of the Medicare and Other Segment based on the
    Medicare line of business (LOB) percentage of each segment. We determined the LOB
    percentage based upon documentation from NH - VT.

13/ We computed the allowable Medicare pension cost as the CY pension cost multiplied by the
    Medicare LOB percentage.
                                                                                                                                APPENDIXB





f".tNational ~vernm-;;;t
  JIll"                      ServIces.	                                                             cr. r ... '     HIlCllJb

          "-,lll"II,I! \ ..>'\·i:n~Hl,'!l\ ~':··'l·":"'.ln\.
                                                                                                    ~)! 11C!:"';~.:             • .
          q'!\"1j   I   jill! "-1.;11<'1\ I~"".l
                                                                                                    j'\",            ",;1..:'   ~~·1"-~·t,.,~)

          l <';111"\'1\\.·,   "\'nl;~.'i..~ ,Hl~2".'

                                                                                                    Ci i I	           .j,.'.,,\. ""_i
                                                                                                    ~:I:'Il'\ I   h".,!. '.. ,H,ll .. Ill,· ':'1




           Sl'{Hc'll1ber 25. 20()X

           \ II'. Partiek .I Coglt:)

           Rc'ginnallnspector General 1(11' Audit Servicc's

           DIIlIS·OICi Onice nl' Audit Sen ices I{<,,"io\l VII

           1>0 I I~ast I 2'h StTt'et                ~

           R,'PIl1 2X·L\

           K~lI1sas (·il:. \1issnuri (>-+ I06



           Rekrl'lIcl': Ih'!lm'( "umher A-f)7-01l-1l1l2711


           DcaI' \Ir, Cogley:

           We arc' ill reC(:ipl cll the draft audit repnrt frolll thc' Inspector (j(,'ncral emitled .oRevie\\' ",' I\:nsi(ln ('nsiS
           Claill1\.'d 1(>1' Mcdic<ll'\.' RcimbursclIlent by Ncw /I<rlllpshire Verllllllll Heulth Sc'rvi"e (Nil VI) Ii:)r I'iscal
           'l'CaI'S I'I'IS Ihr"ugh Ikc'c'mb"'r 2002," The Nil - VI' i\1cdiC,lre contract v\as nc>v,1\ed In \:ati,)nal
           CiO\cTllIllcm Services I \(is) efli::cti\'c .Ialluary I. 2007 III us '!CiS is responding t\) this draf'l report,

           Wc Cl)Jll'llr with thc finding and rccomll1endmioll and will nrnendthc applicable Final ;\drllinistrali\'c e"'1
           Proposals ur j()lIo\\' other C~v1S guidance 10 clairn additional allowable pension costs 01' SI 1)0.55-' 1(>1' FY s
           19X8 through 2002. \Ve \Vi \I also re\ iew the process of recordi ng pension cost [(l cnsurc thai such a!lllll,lIlts
           arc properly supporlc'd hy Ihe i\1cdicarc scgment ('/\5 pension COSlS calculati'l\ls,

            \\'\.' 'Ippreciat\.' tile 0Pl'lH1unil\ 1<) respond   to   this drali report,

            Sinccre",



            (ikrlll Rhodes
            Chie!' I'inalll:ial (lnic,:r


           cc:	                S,lIldr~1  Miller
                               Roh Squire'
                               ,h'anllc Imel \\\'IIP()inl
                               \\'CIlli.' I>crkins
                                (iar: .I, (iranl C'vIS
